Audit Report




OIG-13-043
SAFETY AND SOUNDNESS: Failed Bank Review of First East
Side Savings Bank, Tamarac, Florida


July 2, 2013




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                   July 2, 2013


            OIG-13-043

            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                 Susan Barron /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of First East Side Savings Bank,
                                  Tamarac, Florida


            This memorandum presents the results of our review of the failure of First East
            Side Savings Bank (First East Side), located in Tamarac, Florida, and the
            supervision of the bank by the Office of the Comptroller of the Currency (OCC) and
            the former Office of Thrift Supervision (OTS). OTS regulated First East Side until
            July 21, 2011, when OCC assumed regulatory responsibility for federal savings
            associations pursuant to P.L. 111-203.

            First East Side was established in January 1920 in Chicago, Illinois, as a mutual
            savings and loan under the name East Side Savings and Loan Association. In 1994,
            East Side Savings and Loan Association changed its name to First East Side; it
            converted to a federal savings association in 2002. First East Side sold its Chicago
            home office, and moved its operations to its Tamarac, Florida, branch location in
            October 2007. OCC closed First East Side and appointed the Federal Deposit
            Insurance Corporation (FDIC) as receiver on October 19, 2012. As of June 30,
            2012, First East Side had approximately $67.2 million in total assets. As of
            April 30, 2013, FDIC estimated the loss to the Deposit Insurance Fund to be
            $12.3 million.

            Because the loss to the Deposit Insurance Fund is less than $150 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
            of the failure of First East Side that was limited to (1) ascertaining the grounds
            identified by OCC for appointing the FDIC as receiver and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the
            loss. In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver, (2) reviewed OCC and OTS reports of
            examination for the 5-year period before the bank’s failure, and (3) interviewed
            OCC personnel.
OIG-13-043
Page 2

We performed our fieldwork during November and December 2012. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Causes of First East Side Savings Bank’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank
experienced a substantial dissipation of assets or earnings due to unsafe or unsound
practices; (2) the bank incurred or was likely to incur losses that would deplete all or
substantially all of its capital and there was no reasonable prospect for it to become
adequately capitalized without federal assistance; (3) the bank was undercapitalized,
and failed to submit an acceptable capital restoration plan within the time prescribed;
and (4) the bank was critically undercapitalized.

The primary causes of First East Side’s failure were its (1) concentration in higher-
risk speculative land loans and construction and development (C&D) loans, mostly
in southeastern Florida; and (2) ineffective board of directors and management.
Despite repeated criticism from OTS, followed by OCC, the bank’s board and
management failed to implement and adhere continually to the appropriate credit
administration and risk management practices commensurate with the bank's
concentrations in C&D loans. In addition, the bank failed to adjust timely or
effectively to changing economic conditions within the local markets. As a result,
First East Side’s asset quality deteriorated, classified asset levels increased, and
capital and earnings declined, leading eventually to its failure.

Our review of First East Side revealed certain matters that we referred to the
Treasury Inspector General’s Office of Investigation.


Conclusion
Based on our review of the causes of First East Side’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure that would necessitate an
in-depth review. In making this determination, we took into consideration that the
federal savings association functions of OTS, First East Side’s regulator until July
2011, transferred to OCC. We provided a draft of this memorandum to OCC
management for comment. In its response, OCC stated that it agreed with our
OIG-13-043
Page 3

conclusion as to the causes of the failure of First East Side and that it had no
concerns with our determination that an in-depth review of the bank’s failure is not
warranted. The response is provided as Attachment 1. A list of the recipients of
this memorandum is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Alicia
Weber, Audit Manager, at (202) 927-5811.

Attachments
         OIG-13-043

       Attachment 1
Management Response
                                                       OIG-13-043

                                                     Attachment 2
                                                       Distribution



Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
